OFFICE OF THE
SECRETARY
Monitoring of Obligation
Balances Needs
Strengthening




FINAL REPORT NO. OIG-13-026-A
JUNE 18, 2013



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation

FOR PUBLIC RELEASE
                                             Report In Brief                                         J U NE 1 8 , 2 0 1 3




Background                            OFFICE OF THE SECRETARY
An obligation is the amount of an     Monitoring of Obligation Balances Needs Strengthening
order placed, contract awarded,
or service purchased during an        OIG-13-026-A
accounting period, which re-
quires future payment.                WHAT WE FOUND
An unliquidated obligation is an      The Department’s accounting records contain amounts that can be deobligated. We examined
amount of money that has been         a sample of obligations with balances as of December 31, 2011, and identified 49
designated for a specific purpose     obligation balances, totaling $18.4 million, that could have been deobligated. Specifically,
but has not been disbursed.           we found:
Obligations must be liquidated           Original obligation balances could not be verified. We could not confirm the existence
within certain time limits. If un-         of, or verify the accurate recording for, 12 original obligations.
obligated funds are not used for
their original purpose within            Accounting records did not accurately reflect Department obligations. The Department’s
these time frames, the agency is           accounting records did not always correctly reflect actual obligations because the
required to release the funds for          obligations were entered into the accounting system before they were properly
other allowable purposes, or,              approved.
depending on restrictions placed
                                         Bureaus did not know the status of obligation balances. We identified 39 contracts, 111
by Congress, return the money
to the U.S. Treasury.
                                           grants, and 27 other obligations for which monitoring reports either did not reflect
                                           any status of their respective obligations or reflected an inaccurate obligation status.
Why We Did This Review                   Obligation balances as of December 31, 2011, could not be verified. Quarterly balances
As of December 31, 2011, the               for 60 obligations we tested could not be verified from bureau records.
Department’s unliquidated obli-
                                         Bureaus improperly liquidated contract obligations. Seven contract obligations had been
gations exceeded $9.9 billion. Of
                                           improperly liquidated against incorrect fiscal year funding sources.
this amount, $147 million in obli-
gations were recorded in fiscal       Our findings include monetary benefits to the Department—in the form of estimated
year 2006 or earlier. This is par-    obligations that needed to have been deobligated by December 31, 2011—in the
ticularly important because sus-      amount of $159 million.
ceptibility for misuse increases as
the obligation ages.                  WHAT WE RECOMMEND
Seventy percent of the Depart-        We recommend that the Senior Advisor to the Deputy Secretary Performing
ment’s unliquidated obligations       the Non-Exclusive Duties of the Chief Financial Officer and Assistant Secretary for
were incurred by the National         Administration:
Oceanic and Atmospheric Ad-
ministration and National Tele-       1. Develop a Department-wide initiative related to the timely liquidation, deobligation,
communications and Information           and closure of unneeded open obligations.
Administration. Sixty-two per-
                                      2. Enhance policies and procedures to include specific, comprehensive guidance for
cent of the unliquidated obliga-
tions were for grant funding.
                                         the consistent monitoring and deobligation of unliquidated obligation balances, as
                                         well as ongoing departmental oversight.
We reviewed the Department’s
unliquidated obligation balances      3. Develop guidance and training on the quarterly verification of open obligations.
as of December 31, 2011, to           4. Investigate each specific instance noted in this report where contract obligations
assess whether the Department            may have been liquidated against an incorrect fiscal year funding source or charged
and bureaus have adequate con-           to the wrong account.
trols over the management and
closeout of unliquidated obli-        5. Provide training on the proper methodology for funding invoices of multiple-year
gations.                                 contracts.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                OFFICE OF INSPECTOR GENERAL


Contents
Introduction .......................................................................................................................................................1 
Objectives, Findings, and Recommendations .............................................................................................2 
   1. The Department’s Accounting Records Contain Amounts That Can Be Deobligated ...........2 
   II. Original Obligation Balances Could Not Be Verified....................................................................... 4 
   III. Accounting Records Did Not Accurately Reflect Obligations of the Department .................5 
   IV. Bureaus Did Not Know the Status of Obligation Balances .......................................................... 5 
   V. Obligation Balances as of December 31, 2011, Could Not Be Verified .....................................6 
   VI. Bureaus Improperly Liquidated Contract Obligations ................................................................... 7 
   Other Matters ...............................................................................................................................................9 
       The Department Could Not Use the Acquisition System to Monitor Obligations ..................9 
       Acquisition Personnel Are Not Closing Contracts .......................................................................... 9 
Summary of Agency Response and OIG Comments............................................................................. 11 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 12 
Appendix B: Monetary Benefits .................................................................................................................. 14 
Appendix C: Agency Response................................................................................................................... 15 




                                                                                                                       COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters, 
                                                                                                                   by sculptor James Earle Fraser, 1934 




FINAL REPORT NO. OIG-13-026-A
  DEPARTMENT OF COMMERCE
U.S.                                                                                                     OFFICE OF INSPECTOR GENERAL


Introduction
As of December 31, 2011, the Department of                                                       An obligation is the amount of 
Commerce’s unliquidated obligations exceeded                                                       an order placed, contract 
                                                                                                 awarded, or service purchased 
$9.9 billion (see table 1). Of this amount, $147
                                                                                                  during an accounting period, 
million in obligations were recorded in fiscal year
                                                                                                     which requires future 
2006 or earlier. This is particularly important
                                                                                                           payment. 
because susceptibility for misuse increases as                                                                     
obligations age.                                                                                  An unliquidated obligation is 
                                                                                                 an amount of money that has 
Seventy percent of the Department’s unliquidated                                                 been designated for a specific 
obligations were attributable to the National                                                      purpose but has not been 
Oceanic and Atmospheric Administration (NOAA)                                                              disbursed. 
and National Telecommunications and Information
Administration (NTIA). Sixty-two percent of the
unliquidated obligations were for grant funding.

Obligations must be liquidated within certain time limits. If obligated funds are not used for
their original purpose within these time frames, the agency is required to release the funds for
other allowable purposes or, depending on restrictions placed by Congress, return the money
to the U.S. Treasury.

In January 2012, we began this audit of unliquidated obligations that remained open as of
December 31, 2011. We selected 282 unliquidated obligations for testing, ensuring that at least
one contract, grant, or other1 obligation from all bureaus was included in the sample.

                         Table 1. Department of Commerce Unliquidated Obligations
                                    as of December 31, 2011 (in thousands)
                                                                Grant          Contract            Other                           % of 
                       Bureau                                  Balance         Balance            Balance             Total        Total 
National Telecommunications and 
Information Administration                                     $3,096,467       $       4,992     $    431,372    $3,532,831           35 
National Oceanic and Atmospheric 
Administration                                                  1,387,176          913,179         1,214,856          3,515,211        35 
Economic Development 
Administration                                                  1,175,120             2,262             1,969         1,179,351        12 
National Institute of Standards and 
Technology                                                       484,672           269,345             33,104          787,121              8 
Census                                                                    0        306,440           135,239           441,679              4 

U.S. Patent and Trademark Office                                          0        211,353             43,575          254,928              3 
Other                                                              12,996           35,419           198,534           246,949              3 
   Total                                                       $6,156,431      $1,742,990         $2,058,649      $9,958,070          100 
                                                            
1
 The Office of Inspector General’s category of other obligations includes Working Capital Fund and interagency
and intra-agency agreement obligations.


FINAL REPORT NO. OIG-13-026-A                                                                                                                    1
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL


Objectives, Findings, and Recommendations
We reviewed the Department’s unliquidated obligation balances as of December 31, 2011, to
assess whether the Department and bureaus have adequate controls over the management and
closeout of unliquidated obligations.
                                                                                     Based on our estimate, 
Our audit identified the following:                                                  approximately 2 percent 
                                                                                     of the Department's 
              $18.4 million in funds that need to be deobligated                    December 31, 2011, 
                                                                                     open obligations could 
              original obligation balances that could not be verified               be deobligated.
              obligations recorded in accounting records before
               becoming valid
              ineffective bureau monitoring and obligation status reporting
              active obligation balances that could not be verified
              improperly liquidated contract obligations
We concluded that the Department needs stronger internal controls and policies and
procedures to ensure that bureau obligations are adequately monitored and deobligated when
appropriate. Weaknesses include inconsistent bureau policies and processes and inadequate
bureau monitoring activities.

We performed this audit by obtaining detailed obligation data files from each of the
Department’s 13 bureaus. This audit was conducted under the authority of the Inspector
General Act of 1978, as amended, and Department Organization Order 10-13, dated August
31, 2006. We conducted this audit in accordance with generally accepted government auditing
standards. Details on the scope and methodology of our audit work are provided in appendix
A. Appendix B contains monetary benefits that can be derived from this audit.

       1. The Department’s Accounting Records Contain Amounts That Can Be
       Deobligated

       As noted in table 2, we examined a sample of 282 obligations with balances as of December
       31, 2011, and identified 49 obligation balances, totaling $18.4 million, that should have been
       deobligated. Table 3 summarizes the testing results. Based on these results, we estimated
       that the Department’s obligation balance of $9.96 billion on December 31, 2011, included
       approximately $159 million in amounts that can be deobligated.2 These amounts represent
       our estimate of open obligations that would not be spent for their originally intended
       purpose. As described below, obligations remained open because bureaus did not effectively
       monitor and verify the status of these amounts. As a result, these amounts could not be
       used for other allowable purposes or returned to the U.S. Treasury.
 
                                                            
2
    $159 million is the lowest value in the estimated confidence interval (95 percent confidence).


FINAL REPORT NO. OIG-13-026-A                                                                                   2
  DEPARTMENT OF COMMERCE
U.S.                                                                                    OFFICE OF INSPECTOR GENERAL

      Table 2. Total Obligations Tested and Amounts That Can Be Deobligated

                                         Total Obligations Tested           Amounts That Need to Be 
                                                                                   Deobligated 
                  Obligation Type        No. of            Amount             No. of        Amount 
                                       Obligations       (in millions)      Obligations   (in millions) 
                  Contracts                     84             $  92.3                28         $  8.9 
                  Grants                          140             238.7                5                1.1 
                  Other                            58             276.7               16                8.4 
                   Total                          282            $607.7               49              $18.4 

                             Table 3. Amounts That Can Be Deobligated

                        Bureau        Contract          Grant          Other            Total 
                        NIST      $     86,617  $   593,217  $4,608,700  $   5,288,534 
                        NOAA          2,241,863                  ‐        375,173      2,617,036 
                        USPTO         4,375,864                  ‐        566,910      4,942,774 
                        Census        1,453,702                  ‐        239,250      1,692,952 
                        EDA            117,606          321,410           272,921          711,937 
                        ITA            218,517                   ‐        676,954          895,471 
                        MBDA           200,000                   ‐        382,700          582,700 
                        OS             237,317          177,899       1,066,596        1,481,812 
                        BIS                   ‐                  ‐        181,229          181,229 
                        NTIA                  ‐                  ‐         47,987           47,987 
                        Total     $8,931,486  $1,092,526  $8,418,420                 $18,442,432 

    As an example of an obligation that was not appropriately monitored, the U.S. Patent and
    Trademark Office (USPTO) identified one particular contract as having an unliquidated
    balance of $3.2 million on December 31, 2011, and a period of performance ending on
    September 30, 2006. According to USPTO, contract management issues caused delays in
    the closeout process, and deobligation did not occur until January 2012. However, the
    obligation balance outstanding at December 31, 2011, represents an invalid obligation in our
    test results because it was not liquidated within prescribed time frames.

    We identified similar problems with obligations associated with agreements between federal
    agencies. For example, the Office of the Secretary (OS) executed an interagency agreement
    with the U.S. General Services Administration (GSA) that was separated into tasks with
    different deliverables and periods of performance. GSA, however, applied the payments
    from OS against incorrect tasks. According to representatives from OS, the obligation
    balances cannot be liquidated from the accounting records until GSA reconciles the
    payments to the correct tasks and confirms that the obligation balance is no longer needed.
    However, the unliquidated obligation balances associated with this agreement were still not
    liquidated timely.




FINAL REPORT NO. OIG-13-026-A                                                                                    3
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

       The existing Commerce guidance3 on monitoring obligations is not sufficient to ensure the
       successful closeout of funds available for deobligation. We identified the following key
       deficiencies in this guidance:

                 no identification of management, staff, and business functions responsible for
                  monitoring obligations
                 no required time frames and accountability for deobligating balances once identified
                 no clear definition and criteria for the terms review or verification
                 no guidance on performing reviews or verifications—or on ensuring accuracy and
                  independence
                 no oversight at the departmental level to ensure that the desired outcomes of
                  monitoring are achieved

       II. Original Obligation Balances Could Not Be Verified

       Appropriations law requires obligation balances to be adequately documented before an
       obligation is recorded in the financial accounting system.4 The requirements vary, depending
       on the type of obligation that is recorded. However, at a minimum, the documentation
       must clearly identify the obligation, so that the proper amount can be initially recorded and
       subsequently monitored.

       We identified 12 obligations where the original obligation balance could not be verified. This
       occurred primarily because the bureaus either could not locate or did not provide adequate
       documentation to support them. USPTO and OS could not locate documentation related
                                to three contracts. The National Oceanic and Atmospheric
        We could not confirm     Administration (NOAA), the Bureau of Industry and Security (BIS),
        the existence of, or     and OS did not provide proper purchasing documents for nine of
        verify the accurate      their other obligations. For example, NOAA did not provide an
        recording for, 12        obligating document to support one initial obligation, and
        original obligations.    documentation BIS provided for another did not support the
                                recorded amount. Proper obligating documents, including purchase
       orders and approved requisitions, establish the initial date and amount of an obligation.
       Obligation balances cannot be tracked and monitored if the initial obligation is not approved
       properly and recorded accurately.




                                                            
3
  U.S. Department of Commerce Office of Financial Management, Accounting Principles and Standards Handbook.
http://www.osec.doc.gov/ofm/Accounting/cover.html (accessed June 6, 2013).
4
  31 U.S.C. § 1501, Documentary evidence requirement for Government obligations.


FINAL REPORT NO. OIG-13-026-A                                                                                 4
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL


       III. Accounting Records Did Not Accurately Reflect Obligations
       of the Department

       Appropriations law5 requires all obligations to be evidenced with the proper support before
       being recorded. Contract obligations must be supported by a binding agreement in writing6
       made by an authorized official.7 Grant obligations must be supported by a grant award or
       amendment that is signed by the bureau’s grant officer.8

       We noted that Commerce’s accounting records did not always
       correctly reflect actual obligations, because the obligations              Twenty‐one obligations 
       were entered into the accounting system before they were                   we tested were recorded  
                                                                                  in accounting records 
       properly approved. We identified 21 such obligations,                      before being created. 
       comprised of:

                 7 contracts (4 at NOAA and 3 at Census) recorded before the contracting officer
                  signed the contract
                 10 interagency agreements (9 at NOAA and 1 at the Office of the Secretary)
                  recorded before properly signed and approved
                 4 grants (1 at NIST and 3 at the Economic Development Administration, or EDA)
                  recorded before the grant officers properly signed the award documents

       Properly approving obligations before they are entered into the accounting system ensures
       that the accounting records only reflect actual obligations of the federal government.
       Because contract obligations cannot be legally recorded until they are evidenced by a
       binding agreement, recording early overstates undelivered orders in these instances.
       Further, recording after all approvals are made represents a fraud control, ensuring that
       recorders are only entering valid obligations.

       IV. Bureaus Did Not Know the Status of Obligation Balances

       The Department’s Accounting Principles and Standards Handbook contains requirements for
       monitoring unliquidated balances and deobligating unneeded funds. While they are
       insufficiently prescriptive, the requirements mandate that
                                                                           Obligation monitoring 
       “accounting organizations will periodically review obligations” to  reports are inaccurate 
       ensure they are recorded.9 It also requires that undelivered        and are not being 
       orders “be reviewed and verified at least quarterly.”10             updated. 

                                                            
5
  31 U.S.C. § 1501, Documentary evidence requirement for Government obligations.
6
  31 U.S.C. § 1501, Documentary evidence requirement for Government obligations.
7
  GAO Office of the General Counsel, Principles of Federal Appropriations Law, chapter 7, section B.1.a.
8
  Commerce Office of Acquisition Management, Department of Commerce Grants and Cooperative Agreements
Manual, chapter 8, section I.
9
  Commerce Office of Financial Management, Accounting Principles and Standards Handbook, chapter 7, section
11.06(d).


FINAL REPORT NO. OIG-13-026-A                                                                                 5
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                                  OFFICE OF INSPECTOR GENERAL

       We identified 39 contracts, 111 grants, and 27 other obligations for which monitoring
       reports either did not reflect any status of their respective obligations or reflected an
       inaccurate obligation status. This occurred because the bureaus are not adequately
       monitoring and reviewing obligations throughout their periods of performance. Of the 13
       departmental bureaus, only the Bureau of Economic Analysis, the Economics and Statistics
       Administration, the National Telecommunications and Information Administration, and the
       National Technical Information Service had adequately monitored and reviewed their
       respective obligations that we tested. When obligations are not routinely monitored,
       undelivered orders may result in ongoing overstatement of obligations in bureau accounting
       records.
       We identified several deficiencies related to obligation monitoring. First, some bureaus had
       an obligation monitoring process in place that was not applied to all obligations. For
       example, NOAA had a centralized monitoring process, but it only applied to obligations
       that were inactive for 2 or more years.
       Second, bureaus are not complying with the Department’s requirement to verify
       undelivered orders quarterly. For example, NIST was found to have conducted a formal
       verification only twice per year while BIS only conducted a formal verification annually.
       Third, some monitoring reports from other bureaus showed no evidence of review or did
       not contain information that sufficiently or accurately reflected the obligation status. In one
       example, when we reviewed the monitoring reports for 50 of the EDA grants we tested,
       we did not identify any comments or responses related to the status of the related
       obligations. In another example, USPTO could not locate the file for a contract for $10.5
       million that ended in fiscal year 2007. When we reviewed the obligation on the related
       monitoring report, the status was simply reported as “contract has not been closed out
       yet.” While the contract was in fact not closed out, the statement did not fully reflect the
       fact that the file was missing or the status of related undelivered orders. Monitoring
       obligation balances enables bureaus to know whether the balances recorded in the
       accounting system are accurate and whether they still need to either remain obligated or be
       liquidated.

       V. Obligation Balances as of December 31, 2011,                                                                                   Quarterly balances for 60 
                                                                                                                                         obligations we tested 
       Could Not Be Verified                                                                                                             could not be verified from 
                                                                                                                                         bureau records.  
       Bureaus must review and verify undelivered orders at least
       quarterly.11 To meet this requirement, bureaus need to ensure that adequate
       documentation is prepared and maintained in files.

       We noted that several December 31, 2011, obligation balances could not be verified. This
       occurred because some files did not contain sufficient information to confirm the status of
       the related obligations. NOAA, the Minority Business Development Agency, BIS, and EDA

                                                                                                                                                                                                
10
     Commerce Office of Financial Management, Accounting Principles and Standards Handbook, chapter 9, section 4.0.
11
     Commerce Office of Financial Management, Accounting Principles and Standards Handbook, chapter 9, section 4.0.


FINAL REPORT NO. OIG-13-026-A                                                                                                                                                                6
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL

       files had a total of three contracts, 50 grants, and two other obligation balances that lacked
       the necessary information. As a result, balances reported in the accounting system could
       not be verified.

       We also tested five OS and NIST working capital fund obligations, but those bureaus could
       not provide documentation that verified the December 31, 2011 balances. For example, we
       reviewed $4.6 million in obligation balances that NIST recorded during fiscal year 2007.
       NIST accountants told us that the amounts had actually been liquidated as of December 31,
       2011, but they could not provide adequate documentation to explain why the amounts still
       existed in the accounting records.

       VI. Bureaus Improperly Liquidated Contract Obligations

       OIG identified seven contract obligations at NOAA, Census, the International Trade
       Administration (ITA), and USPTO that were liquidated against incorrect fiscal year funding
       sources. In each instance, bureaus used prior-year funding to pay for contractor services
       continuing under exercised option years. These services should have been paid with fiscal
       year funds associated with the exercised option. Title 31 of the United States Code, section
       1502(a), states that a fixed appropriation account12 may only be used to pay for obligations
       incurred during that period of availability. If the obligation is charged to no-year
       appropriations or the period of obligational authority has not expired, bureaus may
       deobligate funding from one option year and reobligate it into a subsequent option year.
       However, the charging of invoices to prior-year appropriations that are no longer available
       for obligation could potentially lead to an Antideficiency Act (ADA) violation.13 At the very
       least, the instances below describe control issues associated with existing accounting
       practices.

       The seven instances where we noted improper liquidation against incorrect funding sources
       are as follows:

                 One NOAA contract had three open obligations totaling $953,355. During January
                  2012, NOAA received a contract invoice totaling $50,135 for activities performed in
                  November 2011, a period attributable to option year 4 of the contract. A notation on
                  the invoice also indicated that the costs should have been charged to a specific project
                  code in option year 4. Accounting records provided during the audit indicated that the
                  option year 4 project only had a remaining balance of $30,961 when the invoice was
                  received. Because sufficient funds were not available under option year 4, NOAA
                  charged the difference of $19,174 to the unliquidated balance still remaining from
                  option year 1. We noted that NOAA also paid additional option year 4 invoices by
                  using option year 1 and 2 unliquidated balances.

                                                            
12
   In a fixed appropriation account, appropriations are available for obligation for a definite period. A fixed
appropriation account can receive appropriations available for obligation for 1 year (an annual account) or for a
specified number of years (a multiyear account). U.S. Government Accountability Office, September 2005. A
Glossary of Terms Used in the Federal Budget Process. http://www.gao.gov/new.items/d05734sp.pdf.
13
    See 31 U.S.C. § 1341(a).


FINAL REPORT NO. OIG-13-026-A                                                                                       7
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL

          NOAA awarded another contract with a base year and one option year. When we
           reviewed a $15,071 invoice for option year 1 services that NOAA received between
           October 1, 2011, and October 31, 2011, we discovered that NOAA paid this invoice
           on November 22, 2011, by using unliquidated obligations related to the base period.
           NOAA should only have used option year 1 funds to pay the invoice.
          NOAA awarded another contract with a base period and 4 option years. Only option
           year 3 and option year 4 had unliquidated obligation balances remaining as of
           December 31, 2011. When OIG reviewed an invoice for services received during
           option year 4, we discovered that NOAA used part of the option year 3 unliquidated
           obligations to pay the invoice.
          Census awarded a contract with a base period and 4 option years. As of December
           31, 2011, the bureau’s accounting records had no obligations remaining for the base
           year and option year 1, $60,355 remaining from option year 2, and $61,969 from
           option year 3. Our review of invoices charged against each option year found that
           Census incorrectly liquidated obligations with invoices applicable to subsequent option
           periods. Specifically, invoices charged to the base year totaling $27,994 were
           applicable to option year 1. In addition, invoices totaling $22,688 and $17, 089 were
           incorrectly charged to option year 1 and 2, respectively.
          ITA awarded a contract with one option year, separately obligating funding for each
           year. When we reviewed invoices to verify the December 31, 2011, balance, we
           identified invoices totaling $60,762 which ITA appeared to have incurred during the
           period of performance for the option year but paid using base-year funds. As a result,
           fiscal year funding constraints appear to have been compromised, while base-year and
           option-year balances are understated and overstated by $60,762, respectively.
          USPTO entered into an interagency agreement that provided $50,000 in funding for 5
           years, each with a specific period of performance. Our review found that USPTO
           charged costs against this agreement based on available obligation funding (regardless
           of period of performance), rather than aligning the invoice activity to a specific funding
           year. As a result, obligation balances associated with the second funding year were
           liquidated with costs attributable to the third and fourth funding years.
          In another NOAA contract, NOAA charged an obligation totaling $58,519 to an
           incorrect account. When questioned by our office, NOAA indicated it would correct
           this but did not provide further explanation. We could not determine the cause of the
           incorrect charging of this obligation.
    Some contracting personnel informed us that as a standard business practice, they
    processed invoices against available funding, regardless of the funding period, period of
    performance, or appropriation account. This is consistent with what we noted in our audit.
    Also, when contracting personnel obligated funds using no-year appropriations, bureaus did
    not provide evidence that they deobligated and reobligated funds, as required. In
    accordance with Departmental requirements, we provided the Department with details of
    the testing described above in order for the Department to assess bureau accounting
    practices and determine whether an ADA violation may have occurred.



FINAL REPORT NO. OIG-13-026-A                                                                       8
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


Other Matters

The Department Could Not Use the Acquisition System to Monitor Obligations

    At the time of our audit, the Department and bureaus, except for USPTO, used the
    Commerce Acquisition Standard Reporting System (CSTARS) to award and close out
    contracts. However, OIG review of data contained in CSTARS indicates the system was not
    consistently populated with key fields such as contract end date and, as a result, CSTARS
    could not be used to monitor obligation balances. If CSTARS users were required to record
    and update key fields, CSTARS could have been used as an obligation monitoring tool.
    However, CSTARS information was recorded by system owners at Census, NOAA, and
    NIST, not centrally by the Department’s Acquisition Office. Failure to mandate the fields
    populated in CSTARS has reduced the effectiveness of the system as an obligation
    monitoring tool.

    The Department has informed OIG that it has since replaced CSTARS with a new system,
    C.Suite, which it states now requires the completion of key fields before contracting officers
    can finalize contract actions.

Acquisition Personnel Are Not Closing Contracts

    Our review of CSTARS further identified a significant number of contracts that have not
    been closed, although deobligation of funding may have occurred. According to bureau
    acquisition personnel, insufficient staffing resources—coupled with the Department’s
    emphasis on issuing rather than closing contract awards—has resulted in contract closeouts
    being processed as time and staffing permits rather than in compliance with closeout
    requirements in the Federal Acquisition Regulation (FAR). Failure to conduct contract
    closeout procedures in accordance with the FAR may result in obligations not being
    liquidated in a timely manner.

Recommendations

We recommend that the Senior Advisor to the Deputy Secretary Performing the Non-
Exclusive Duties of the Chief Financial Officer and Assistant Secretary for Administration:

    1. Develop a Department-wide initiative related to the timely liquidation, deobligation, and
       closure of unneeded open obligations.
    2. Enhance policies and procedures to include specific, comprehensive guidance for the
       consistent monitoring and deobligation of unliquidated obligation balances, as well as
       ongoing departmental oversight.
    3. Develop guidance and training on the quarterly verification of open obligations.
 




FINAL REPORT NO. OIG-13-026-A                                                                    9
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

    4. Investigate each specific instance noted in this report where contract obligations may
       have been liquidated against an incorrect fiscal year funding source or charged to the
       wrong account.
    5. Provide training on the proper methodology for funding invoices of multiple-year
       contracts.




FINAL REPORT NO. OIG-13-026-A                                                                   10
  DEPARTMENT OF COMMERCE
U.S.                                                              OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and
OIG Comments
OIG received the Department’s comments on the draft report, which we include as appendix
C of this final report. Overall, the Department concurs with the findings and recommendations
in the report. The Department will develop corrective action plans and ensure timely
implementation to address the recommendations.

The Department states that the issue we identified related to populating key fields in its
contract writing system is resolved. The Department also notes that it recognizes the
importance and the requirement of contract closeouts and will continue to improve internal
controls to ensure that bureau obligations are adequately monitored and deobligated promptly.

We look forward to receiving the Department’s action plans.

 




FINAL REPORT NO. OIG-13-026-A                                                               11
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
We reviewed the Department’s unliquidated obligations balances as of December 31, 2011, to
assess whether the Department and bureaus have adequate controls over the management and
closeout of unliquidated obligations. We conducted our review by obtaining detailed obligation
data files from each of the Department’s 13 bureaus: Bureau of Economic Analysis, Bureau of
Industry and Security, Census Bureau, Economic Development Administration, Economic
Standards Administration, International Trade Administration, Minority Business Development
Agency, National Institute of Standards and Technology, National Oceanic and Atmospheric
Administration, National Technical Information Service, National Telecommunications and
Information Administration, Office of the Secretary, and U.S. Patent and Trademark Office.
We accomplished our objective by performing the following tasks:

         We obtained an understanding of internal controls over management and closeout of
          unliquidated obligations by interviewing bureau accounting and acquisition staff
          involved in the recording, monitoring, management, and closeout of unliquidated
          obligations.
         We chose a representative sample of unliquidated obligations by aggregating each
          bureau’s obligation data into three categories (contract, grant, and other) and
          restricted our sample to the universe of 5,371 unliquidated obligations valued at
          $100,000 or more.
         We stratified the data across bureau and obligation type for a total of 32 strata. To
          reach a minimum confidence level of 90 percent and a 5 percent or smaller margin of
          error, we sampled 258 records and proportionately allocated the records across each
          stratum with a minimum of 1 obligation per stratum. We also oversampled strata
          where, based on previous audit work, we expected higher than typical variance,
          resulting in a final sample size of 282. The results were then estimated for the entire
          Department at a 95 percent confidence level. The estimate shown in the report
          represents the low end of the margin of error.
          We tested the reliability of the obligation data provided from the bureaus’ systems by
           (1) reconciling each bureau’s unliquidated obligation balance to the general ledger and
           (2) analyzing the data for irregularities and logical inconsistencies such as duplicate
           records, missing data, and obvious calculation errors. We did not have access to the
           programming code of the systems. No discrepancies were noted; thus, we consider
           the data sufficiently reliable for use in our audit.
          We reviewed the rules and regulations regarding management and closeout of
           unliquidated obligations by assessing the Department’s compliance with the
           Commerce Acquisition Manual, Grants Manual, Accounting Principles and Standards
           Handbook, the Federal Acquisition Regulation, and bureau policy and procedures, as
           applicable to our audit objective.


FINAL REPORT NO. OIG-13-026-A                                                                    12
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

         We analyzed unliquidated obligation data reported as of December 31, 2011, in each
          bureau’s financial system, contract management system, and/or grants management
          system.
          We reviewed evidence supporting the validity of each of the 282 sample items, such as
           contracts, grant agreements, purchase orders, and invoices. Based on the results of
           our test work, we made estimations about the unliquidated obligations population.
The audit was conducted under the authority of the Inspector General Act of 1978, as
amended, and Department Organization Order 10-13, dated August 31, 2006, at the
Department’s offices in the Washington, D.C., metropolitan area. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.


 




FINAL REPORT NO. OIG-13-026-A                                                                  13
  DEPARTMENT OF COMMERCE
U.S.                                                             OFFICE OF INSPECTOR GENERAL


Appendix B: Monetary Benefits
                                                               Funds Put
                                      Questioned Costs       to Better Use
              Estimated obligations
              that could have been
              deobligated by
              12/31/2011                                 0      $159 million

 




FINAL REPORT NO. OIG-13-026-A                                                            14
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL


Appendix C: Agency Response




011200000140


FINAL REPORT NO. OIG-13-026-A                           15
